-1622 ORIGINAL

No. 19-13788-b
IN THE

hleu
WAV o 4 2021

Supreme Court of the United States

Ramonica M. Luke
Petitioner,
v.

University Health Services, Inc.
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
For the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI

Ramonica Luke
1613 Fairwood Drive
Augusta, Ga 30909
(706)619-8516
Ramonicflliikel 983@gniail.com

receive!)'"
MAY 1 0 2021

wsMraam

1

QUESTION PRESENTED FOR REVIEW

1. Applicable to the Title VII of the Civil Rights of 1964 or 42 U.S.C, 1981, did
Plaintiff prove pretext by discrimination by showing “weakness,
implausibilities, inconsistencies, incoherencies or contradictions in the
employer’s proffered legitimate reason for its action”?

2. Circuit Courts are in conflict with the phrase “similarly situated” and the

stage of McDonnell Douglas comparator evidence should be analyzed.
Applicable to Supreme Court precedent, what is the proper standard to apply
to similarly situated comparators: “nearly identical’ standard, “all material
respects” standard or some other standard?
3. When there is evidence of “comparable seriousness,” does the Honest Belief

Rule apply to comparator evidence at the tertiary stage of McDonnell Douglas
framework?
4. Are Courts allowed to use untested or inadmissible evidence at the second
stage of McDonnell Douglas framework?

H

PARTIES TO THE PROCEEDING
Petitioner Ramonica M. Luke was the Plaintiff in the United States District Court
for the Southern District Court of Georgia and the Appellant at the United States
Court of Appeals for the Eleventh Circuit. Respondent University Health Services,
Inc., was the Defendant in the District Court and the Appellee in the Court of
Appeals.

iii

CORPORATE DISCLOSURE STATEMENT
Petitioner Ramonica Luke is an individual and brings
the claims in this matter on her behalf.
Respondent University Health Services, Inc, is a subsidiary of University Health, Inc.

IV

TABLE OF CONTENTS
QUESTION PRESENTED.............

1

PARTIES TO THE PROCEEDING

.11

CORPORATE DISCLOSURE STATEMENT

hi

TABLE OF CONTENTS

IV

TABLE OF AUTHORITIES

vi

PETITION FOR A WRIT OF CERTIORARI,

1

OPINIONS BELOW,

1

JURISDICTION

1

RELEVANT STATUTORY PROVISION

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

4-24

I.

Petitioner proved weaknesses, implausibilities, inconsistencies,
incoherencies or contradictions in the employer’s proffered legitimate
reasons” and racially discrimination was the motivating factor; Court
of Appeals erred when it used unarticulated reasons for petitioner’s
termination.

II.

The Circuits are split on a “Similarly Situated” Comparator; District
Court Failed to consider petitioner’s prima facie case; Eleventh Circuit
Applied the Defendant’s Burden of Production to the prima facie case.

III.

The Eleventh Circuit erred when it applied inadmissible evidence and
unarticulated reasons for termination at the burden of proof stage of
McDonnell Douglas. The District Court erred when it failed to consider
comparator evidence at the prima facie stage.

TV.

The application of the honest belief rule is in conflict with the
precedent of other Circuit Courts, and the Supreme Court law
regarding comparator evidence.

CONCLUSION

25

V

TABLE OF APPENDICES
Page
Appendix A
OPINION OF THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT, FILED JANUARY 28, 2019............................. la
Appendix B
ORDER OF THE UNITED STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF GEORGIA, FILED SEPTEMBER 24, 2019.................................... 15a

VI

TABLE OF AUTHORITIES
Page(s)
Cases
Accord Fowle v. C&C Cola 868 F. 2d 59, 65 (3rd Cir, 1989)

17

Alvarez v. Royal Atl. Developers, Inc. 610 F 3d 1253, 1266 (11th Cir. 2010)

23

Burke-Fowler v. Orange County, Fla., 447 F. 3d 1319, 1323 (11th Cir. 2006)

17

Burrus v. United Tel. Co., 683 F.2d 339 (D.C. Cir 2003)

17

Damon v. Fleming Supermarkets of Fla., Inc., 196 F.3d 1354. (11th Cir. 1999)

9

Delli Santi v. CNA Ins, Cos., 88 F. 3d 192, 202 (3rd Cir. 1996)

11

Elrod v. Sears, Roebuck & Co 939 F.2d 1466(llth Cir. 1991)

23

Furnco Construction Corpy. Waters, 438, U.S. 567, 577, 98 Supreme Court

13

Goodman v. Kimbrough, 718 F 3d. 1325, 1332 (11th Cir. 2013)

22

Graham v. Long Island R.R., 230 F. 3d 34, 43 (2nd Cir. 2000)

11

Isenbergh v. Knight-Ridder Newspaper Sales, 97 F. 3d 436, 439 (11th Cir.
1996)
Jayasinghe v. Bethlehem Steel Corp., 760 F. 2d 132, 135 (7th Cir. 1985)
Kariotis v. Navistar Inti Transp. Corp., 131 F. 3d 672, 676 (7th Cir. 1997)

16-17
17
23-24

LaFleur v. Wallace State Cmty. College, 955 F. Supp. 1406, 1418 (MD, Ala
1996)

17

Vll

LeGrand v. Tr. of Univ. of Ark., 821 F. 2d 478, 481 (8th Cir.
1987)
Lewis v. City of Union City, 918 F. 3d 1213 (11th Cir. 2019)(en banc)

17
.passim

Lynn v. Regents of Univ of Cal., 656 F. 2d 1337, 1344-45 (9th Cir. 1981)

17

Manniccia v. Brown, 171 F.3d 1364,1368 (11th Cir.1999)

17

Medina v. Ramsey Steel Co., 238 F.3d 674. (5th Circ.1999)

17

McDonald v. Sante Fe Trail Transportation Co., 427 US 273, 283 Supreme
Court

13

McDonnell Douglas Corp v. Green, 411 U.S. 792 (1973)

.passim

Miles v. M.N.C Corp., 750 F.2d 867, 871 (11th Cir 1985)

16

Nix v. WLCY Radio/ Rahall Commc’ns, 738 F. 2d 1181, 1186 (11th Cir. 1984)
Olsen v. Marshall & Ilsley Corp., 267 F 3d. 597,601 (7th Cir. 2001)

2
11

Patterson v. McLean Credit Union 491 U.S. 164, 186, 105 Supreme Court (1989)...16
Reeves v. Sanderson Plumbing Probs., Inc., 530 (2000)
Smith v. Chrysler Corp, 155 F. 3d 799, 806 (6th Cir 1998)
St. Mary’s Honor Ctr. v. Hicks, 509 U.S. 502 (1993)
Tex. Dep’t of Cmty. Affairs v. Burdine, 450 (1981)

9
23
19-20
passim

Walker v. Mortham, 158 F,3d 1177. U.S. (1998)

16

Wexler v. White’s Fine Furniture, 317 F. 3d 564, 575 (6th Cir, 2003) (en banc)....... 17
Young v. UPS, 575 U.S. 206 (2015)

Statutes
28 U.S.C § 1254 (1)
42 U.S.C § 1981 (a) (Section 1981)
42 U.S.C § 2000 e-2(a) (1) (Title VII)
Equal Protection Clause
Federal Rule Evidence 801

6

1
Petitioner Ramonica M, Luke respectfully petitions this court for a writ of
certiorari to the Eleventh Circuit Court of Appeals, to review the decision below
regarding his discrimination claims brought under Title VII of the Civil Rights Act
of 1964 and the Civil Rights Act of 1866 § 1981.
OPINIONS AND ORDERS BELOW
The Opinion of the United States Court of Appeals for the Eleventh Circuit
for which Petitioner respectfully petitions this Court for a writ of certiorari, Luke v.
University Health Services, Inc., No. 19-13788, is unpublished and marked with a
“DO NOT PUBLISH” notation. It is viewable Luke v. Univ. Health Servs., 2021
U.S. App. LEXIS 2421, Fed. Appx.2021 WL 289307 See Petitioner’s Appendix (“Pet.
App.”) A, la-14a
The Opinion of the United States District Court for the Southern District of
Georgia, which was appealed to the United States Court of Appeals for the Eleventh
Circuit, Luke v. University Health Services, Inc., No. 17-00125, is unreported, but
viewable at Luke v. Univ. Health Servs., 2019 U.S. Dist. LEXIS 163494, 2019 WL
4670757 .See Petitioner’s Appendix (“Pet. App.”) B, 15a-44a
STATEMENT OF JURISDICTION
The judgment of the United States Court of Appeals for the Eleventh Circuit
was entered on January 28, 2021. See Appendices A at la - 14a, respectively. The
jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

2

RELEVANT STATUTORY PROVISION
Title VII of the Civil Rights Act of 1964, 42 U.S.C. § 2000e-(a)(l)(“TitleVH”),
provides in pertinent part: “It shall be an unlawful employment practice for an
employer...to fail or refuse to hire or to discharge any individual, o otherwise to
discriminate against any individual with respect to his compensation, terms,
conditions, or privileges of employment, because of such individual’s race, color,
religion, sex, or national origin.”
The Civil Rights Act of 1866, 42 U.S.C. § 1981 (a) (“Section 1981”) provides
that “All persons within the jurisdiction of the United States shall have the same
right in every State and Territory to make and enforce contracts, to sue, be parties,
give evidence, and to the full and equal benefit of all laws and proceedings for the
security of persons and property as is enjoyed by white citizens, and shall be subject
to like punishment, pains, penalties, taxes, licenses, and exacions of every kind, and
to no other.”
The Equal Protection Clause of the Fourteenth Amendment provides, in part,
that no State shall deprive any person of life, liberty, or property, without due
process of law. U.S. Const, amen. XIV, #1. The Due Process Clause has procedural
and substantive components. Substantive due process prohibits the government’s
abuse of power or its use for the purpose of oppression, whereas procedural due

3
process prohibits arbitrary and unfair deprivations of protected life, liberty, or
property interests without procedural safeguards.
STATEMENT OF THE CASE
The petition seeks to challenge the rulings below which summarily dispose of
Petitioner’s claims of disparate treatment or intentional discrimination based on
race, brought under Title VII of the Civil Rights Act of 1964 and Section 1981.
Petitioner, Ramonica Luke, worked in the laboratory at University Hospital for 10
years as a phlebotomist/processor under the supervision of Vicki Forde. On January
11, 2017, petitioner received a phone call from laboratory director, Christa Pardue,
Human Resources Specialist, Vita Mason, and Lab Manager,Vicki Forde, explaining
she was terminated immediately. Petitioner was recommended for termination for a
missed punch which occurred on Dec. 31, 2016, which resulted in the decision to
terminate for failure to adhere to the attendance policy. On February 24, 2017,
Petitioner filed a charge with the U.S. Equal Employment Opportunity Commission
alleging she was discriminated against due to her race. Petitioner alleged in her
complaint that there were similarly situated Caucasian co-workers who were not
discharged for failure to clock in and out and/or tardies, violating the attendance
policy. On July 24, 2017, the EEOC issued a Notice of Right to Sue; petitioner filed
a lawsuit in District Court on Oct. 17, 2017. The parties filed cross-motions for
summary judgment in the District Court. The District Court granted University
Health Services Inc. Summary Judgment on September 24, 2019. The United

4
States Court of Appeals for the Eleventh Circuit affirmed, by way of decision dated
May 31, 2019. Petitioner now seeks a writ of certiorari to the Eleventh Circuit,
based on the improper application of several standards as to Petitioner's racial
discrimination claim under Title VII and Section 1981.
REASON FOR GRANTING THE PETITION
I.

Petitioner proved weaknesses, implausibilities, inconsistencies, incoherencies
or contradictions in the employer's proffered legitimate reasons” and racially
discrimination was the motivating factor.

The Eleventh Circuit erred when it concluded Plaintiff did not prove pretext by
showing any “weakness, implausibilities, inconsistencies, incoherencies or
contractions in the employer’s proffered legitimate reason for its actions.” The
McDonnell Douglas legal framework was applied to determine whether intentional
discrimination has occurred based on circumstantial evidence. At the first step of
McDonnell Douglas, the employee must make out a prima facie case of
discrimination, which gives rise to a rebuttable presumption that the termination
was discriminatory. In the context of a race discrimination claim, prima facie stage
of McDonnell Douglas, comparators must be similarly situated in all material
respects. A plaintiff must establish that the alleged comparator: will have engaged
in the same basic conduct or misconduct as the plaintiff; will have been subject to
the same employment policy, guidelines, or rule as the plaintiff; will ordinarily
although not invariably have been under the jurisdiction of the same supervisor of
the plaintiff; and will share the plaintiff’s employment or disciplinary history. A

5
valid comparison is based on substantive likeness; plaintiff and her comparators
must also be similar in an objective sense. Under this standard, an employee is well
within its rights to accord different treatment to employees who are differently
situated in material respects’ who engaged in different conduct, who were subject to
different policies, or who have different work histories. In Luke, all comparators
met all four prongs of the all material respect standard: each comparator had five
years of employment history, all comparators engaged in the basic misconduct as
plaintiff (tardies and missed punches); all comparators were subject to the same
attendance policy( no one was allowed a seven minute grace period, therefore any
clock in after the start of shift was considered late, moreover, all employees were
required to clock in and out; all comparators were under the jurisdiction of the same
supervisor, Vicki forde (supervisor was the timekeeper). There were eight
comparators listed. The Eleventh Circuit concluded the “immaterial” difference
between Plaintiff and comparators was a complaint from a co-worker about her
tardiness and the subjective belief of falsification of time records. The honest belief
rule is applied to the second and third stage of the McDonnell Douglas framework,
moreover, the two “immaterial” differences are not work rules violated by plainitiff.
“If an employer applies a rule differently to people it believes are differently
situated, no discriminatory intent has been shown.” This application is not legally
justifiable.

6
Once the prima facie case is made, the burden shifts to the employer at the
second step to provide a “legitimate, nondiscriminatory reason for its action.” “If a
plaintiff alleging disparate treatment makes a prima facie case showing, then the
employer must have an opportunity to articulate some legitimate,
nondiscriminatory reason for treating employees outside the protected class better
than employees within the protected class. If the employer articulates such a
reason, the plaintiff then has an opportunity to prove by a preponderance of the
evidence that the legitimate reasons offered by the defendant, i.e., the employer,
were not its true reasons, but were a pretext for discrimination.” Young v. UPS, 575
U.S. 206, 135 Supreme Court 2015
In Luke, defendants states it terminated Plaintiff:
Because she violated Defendant’s attendance policy when she failed to show
up to work at her scheduled time and when she failed to clock in according to
the policy. Plaintiff not only had a long history of failure to follow the
attendance policy, but she was put on notice of the consequences if she
continued to violate the policy.
An unarticulated proffered reason for treating employees outside the
protected class better than employees within the protected class was “Vicki Forde
subjectively believed that plaintiff falsified time records and Amita Simmons
complained about Luke’s tardiness,” and also argued in the defendant's brief. The
Court of Appeal erred when it allowed unarticulated proffered reason in the “burden
of production stage.” “The defendant need not persuade the court that it was
actually motivated by the proffered reasons. It is sufficient if the defendant’s

7
evidence raises a genuine issue of fact as to whether it discriminated against the
plaintiff. To accomplish this, the defendant must clearly set forth, through the
introduction of admissible evidence, the reasons for the plaintiff rejections." Tex.
Dep’t of Cmty. Affairs v. Burdine, 450 U.S. 248, 101 Supreme Court 1981 There is
clearly no evidence on record stating plaintiff was terminated for falsification of
time records. Moreover, Amita Simmons was not used as a witness in Defendant's
initial or supplemental disclosure and her complaint Defendants argued in oral
argument that the reason Plaintiff was out of a job and her comparators were not
similarly situated, was due to supervisor’s subjective belief and co worker’s
complaint. The burden shifts to the defendant to rebut the presumption of
discrimination by producing evidence that the plaintiff was rejected for a legitimate
nondiscriminatory reason. This subjected belief, proffered reason and co worker
complaint is unworthy of credence because there is no evidence on record that
Plaintiff was terminated for falsifying time records or due to a co worker’s
complaint. The defendant need not persuade the court that it was actually
motivated by the proffered reasons. It is sufficient if the defendant’s evidence raises
a genuine issue of fact as to whether it discriminated against the plaintiff. To
accomplish this, the defendant must clearly set forth, through the introduction of
admissible evidence, the reasons for the plaintiff rejection. An articulation not
admitted into evidence will not suffice. Thus, the defendant cannot meet the burden
merely through an answer to the complaint or by argument of counsel. The

8

explanation provided must be legally sufficient to justify a judgment for the
defendant.” citing Tex. Dep’t of Cmty. Affairs v. Burdine, 450 U.S. 248
The District Court concluded that the defendants satisfied its burden of
production by offering evidence documenting Plaintiff’s attendance issues, multiple
warnings, a coworker complaint, and a termination letter identifying attendance as
the reason. The defendants did not satisfy the burden of production by offering
evidence that Plaintiff was terminated due to falsification to time records or a co
worker’s complaint. Even with this evidence presented the burden of production
was satisfied; thus, the burden shifts back to Plaintiff to establish the proffered
reason was pretextual.
Finally, at the third step, if the employer provides such a reason, the burden
shifts back to the employee to show that the employer’s proffered reason is a
“pretext for illegal discrimination.” To show pretext at this third step, the evidence
must show “such weakness, implausibilities, inconsistencies, incoherencies or
contradictions in the employer’s proffered legitimate reasons for its actions that a
reason factfinder could find them unworthy of credence.” By showing pretext using
similarly situated comparators at the third stage, a plaintiff has to offer evidence
sufficient to support a finding that comparators received more lenient punishment
for a comparable serious violation of the same rule. Plaintiff should “be afforded a
fair opportunity to show that petitioner's stated reason for respondent’s
[termination] was in fact pretext. “Especially relevant to such a showing would be

9
evidence that white employees involved in acts against petitioner of comparable
seriousness to the “stall-in” were nevertheless retained or rehired.” McDonnell Corp.
v. Green, 411 U.S. 792,-93 S. Ct. 1817, 36 L. Ed. 2d 668, 1973 U.S.
In Reeves v. Sanderson Plumbing Products Inc., the Supreme Court decided
that the prima facie case together with sufficient evidence to disbelieve employer’s
justification held potentially sufficient to support finding of discrimination.
Moreover, petitioner placed the veracity of University Health’s explanations at
issue, pointing both to substantial inconsistencies and weaknesses in the proffered
reasons, as well as circumstantial evidence of intentional discrimination:
a. Discrediting the employer’s assertion that human resources personnel,
Vita Mason and Christopher Westbrook, were the ultimate decision
makers, when in fact, hospital policy states that supervisor and human
resource collaborate together to determine the outcome of the decision
to terminate; therefore, plaintiff supervisor, Vicki Forde, was a
decisionmaker in employee’s adverse action.1 The separation letter also
states Vicki Forde was a decisionmaker.2 Employer deviated from this
policy.
b. Creating an issue as to the falsity of the claim that the employee was
fired because of a supervisor’s subjective belief that she falsified time
records.3 The District used the honest belief rule at the pretext stage
of McDonnell Douglas to determine if Plaintiff was similarly situated
to comparators. The Seventh Circuit concluded “so long as the
employer honestly believed in the proffered reason, an employee
cannot prove pretext even if the employer’s reason in the end is shown
to be mistaken, foolish, trivial, or baseless.” Plaintiff was not
terminated for falsification of time records, so honest belief rule should
not have been applied. The Sixth Circuit, concluded when applying
1 See Doc 54-4 at 29 Progressive Performance Management Policy
2 Doc. 58 Separation Letter dated for January 25, 2017
3 This statement was given in oral argument by defendant's counsel

10
the honest belief rule “an employer to avoid a finding that its claimed
nondiscriminatory reason was pretextual, the employer must be able to
establish it’s reasonably reliance on the particularized facts that were
before it at the time the decision was made,” University Health did not
rely on the facts presented in regards to the falsification of time
records claim. Human Resources denied the claim due to lack of
evidence.
c. Luke has also presented additional evidence of pretext: her evidence
that similarly situated employees outside her protected class received
more favorable treatment from the same decision-maker.4 The
attendance policy required all employees to clock in and all employees
were considered late one minute after the start of shift. There were
eight comparators who violated the attendance policy and were not
terminated. Frances Nicole Darnell had 231 tardies and 48 missed
punches from January 1, 2015 to January 1, 2017. From January 1,
2012 to December 31, 2014, she had 390 tardies and 51 missed
punches; she was not terminated for failure to adhere to attendance
policy. Pamela Evans had 193 tardies and 8 missed punches from
January 1, 2015 to January 1, 2017. From January 1, 2012 to
December 31, 2014, she had 434 tardies and missed punches. Jennifer
Campbell had 153 tardies and 11 missed punches from January 1,
2015 to January 1, 2017. From January 1, 2012 to December 31, 2014,
she had 252 tardies and 26 missed punches. Janet Neal had 90 tardies
and 8 missed punches from January 1, 2015 to January 1, 2017. From
January 1, 2012 to December 31, 2014, she had 186 tardies and 19
missed punches; she was not terminated for failure to adhere to
attendance policy. Alice Mueller had 34 tardies and 21 missed punches
from January 1, 2015 to January 1, 2017. Blake Wojtaszok had 35
tardies and 8 missed punches. Joy Elaine Sizemore had 21 missed
punches from January 1, 2015 to January 1, 2017. From January 1,
2014 to December 31, 2014, she had 56 tardies and 108 miss punches.
Laura Glossom had 85 tardies and 21 missed punches. From January
1, 2012 to December 31, 2014, she had 110 tardies and 48 miss
punches. The evidence of similarly situated co-workers is also relevant
to the pretext inquiry. In Luke, her comparator evidence shows that
her managers did not enforce this rule evenhandedly. “A showing that
similarly situated employees belonging to a different racial group
received more favorable treatment can also serve as evidence that the
4 See Appellant Brief at 15 to 21

11
employer’s proffered legitimate, nondiscriminatory reason for the
adverse job action was a pretext for racial discrimination.” quoting
Graham v. Long Island R.R., 230 F. 3d 34, 43 (2d Cir. 2000) Such
evidence of selective enforcement of a rule “calls into question the
veracity of the employer’s explanation.” Olsen v. Marshall & Ilsley
Corp., 267 F. 3d 597, 601 (7th Cir 2001) The plaintiff’s “showing that
the company did not enforce such a policy” is evidence from which the
jury...could rationally conclude that the legitimate non retaliatory
reason offered by [the employer] was a pretext for discharging [the
plaintiffj.”) Delli Santi v. CNA Ins. Cos., 88 F.3d 192, 202 (3d Cir, 1996)
d. The employer’s shifting explanation surrounding the final incident of
the date in question, Dec. 31, 2016, prior to the adverse action. At the
time of separation, the defendant articulated a missed punch resulted
in the recommendation for termination which resulted in plaintiff’s
termination for a missed punch.5 During litigation, the defendant’s
explanation shifted to a co-worker’s complaint of a tardy led to the
recommendation to termination which resulted in plaintiff’s
termination for a tardy.6 The District Court erred when it allowed a co
worker complaint as evidence; it is inadmissible hearsay. It violates
Fed. R. Evid. 801 (c), which also violated Federal Rule 56(c) (2).
Moreover, Amita Simmons was not listed as a witness on Defendant’s
Initial Disclosure or Supplemental Disclosure.
e. Plaintiff’s supervisor deviation from policy. Vicki Forde supplemental
declaration states that the process of termination outlined in the
Progressive Performance Management Policy(A25) is applied when
employees are in violation of the attendance policy.7 The Eleventh
Circuit was correct that Vicki Forde had the discretion to implement
5 See Doc 58 Separation Letter dated for January 25, 2017

6 See Appellee’s Brief at 14
7 The steps of progressive performance management:
1. Supervisor will verbally counsel with the employee and record anecdotal notes.
2. Supervisor will give a formal written warning to be documented in the employee’s personnel
record.
3. In the event of another violation of the Standards of Behavior or UH Policy (the same
standard or a different one) during the twelve months following a written warning, the
supervisor will give a final written warning to be documented in the employee’s personnel
record.
4. Supervisor will make a recommendation for termination to HR and notify his/her next level
of management.
5. Supervisor and HR will collaborate to determine the outcome. (See Doc 54-2 at 27)

12
this policy; however, Angela Thomason termination was an example of
how this policy was not evenly applied at Vicki Forde’s discretion. She
also deviated from this policy when she did not apply fairness and
consistency when applying corrective measures.8 Making false entries
or altering any hospital record or report would have resulted in
discharge without progressive performance actions, but failure to
adhere to the attendance policy was not listed as an example of
behavior that would have resulted in an immediate dismissal.
Petitioner had only one reprimand within a 12 month period prior to
her discharge.
II. The Circuits sire split on a “Similarly Situated” Comparator, What is considered
“comparable” by the Supreme Court? Is it a nearly identical standard,
all-material-respect standard or some other standard? Eleventh Circuit erred when
it applied the Defendant’s Burden of Production to the prima facie case.

The Supreme Court has held that in order to make out a prima facie case of
discrimination under Title VII of the Civil Rights Act of 1964, the Equal Protection
Clause of the Fourteenth Amendment, or 42 U.S.C. § 1981, a plaintiff must prove
among other things, that she was treated differently from another “similarly
situated” individual. The Eleventh Circuit Court is applying rigorous guidelines
and standards to the prima facie stage which is in conflict with the precedent set by
the Supreme Court. The burden of establishing a prima facie case of disparate
treatment is “not onerous.” Burdine, 450 U.S. at 253. The Supreme Court
concluded, in McDonnell Douglas, that comparators are to be “comparable.” The
Supreme Court “never intended” the requirements “to be rigid, mechanized, or
8 Fairness and consistency are essential when applying corrective measures to remedy employee misconduct.
Consistency requires that measures be applied equally to all employees. Fairness, however, requires that measures
be applied as warranted by the specific circumstances surrounding each episode of employee misconduct;
Mverover, Supervisors should strive to maintain consistency in the use of discipline, but consider the degree of
misconduct involved or extenuating circumstances that may temper the response to a specific act. (See Doc 54-4 at
28)

13
ritualistic... [but] merely a sensible, orderly way to evaluate the evidence in light of
common experience as it bears in the critical question of discrimination.” Furnco
Construction Corpv. Waters, 438, U.S. 567, 577, 98 S. Ct. 2943, 57 L. Ed. 2d 957
(1978). The Court has cautioned “premise equivalence...between employees is not
the ultimate question.” McDonald v. Santa Fe Trail Transportation Co., 427 U.S.
273, 283 273, 283 n. 11, 96 S. Ct. 2574, 49 L. Ed. 2d 493 (1976). The touchstone of
the similarly-situated inquiry is simply whether the employees are “comparable.”
quoting McDonnell Douglas, 411 U.S. at 804. In Luke, all guidelines, in accordance
to the Eleventh Circuit precedent were followed and applied to the comparator
analysis, but this wasn’t enough. The Eleventh Circuit added “immaterial”
explanatory variables to determine a difference between plaintiff and her
comparators. Thus, the Eleventh Circuit applied outrageous guidelines to
determine if comparators were similarly situated which is in conflict with Supreme
Court precedent set in McDonnell Douglas framework.
The Eleventh Circuit erred when a proffered reason for termination was
applied at the prima facie stage stage of McDonnell Douglas, rather than the second
step of McDonnell Douglas framework. In Lewis vs. Union city (en banc), the 11th
circuit held that all comparators must be “similarly situated in all material
respects.” ; which means a comparator will have “engaged in the same basic conduct
(or misconduct) as the plaintiff, “been subject to the same employment policy,” been
under the jurisdiction of the same supervisor,” and “will share the plaintiff’s

14
employment or disciplinary history.” In Luke, all eight comparators were similarly
situated in all material respects. All comparators had evidence of tardies and
missed punches, all comparators were not allowed a seven minute grace period (any
clock-in time one minute after start time was considered tardy) and all comparators
were required to clock in per hospital policy; all comparators were under the
jurisdiction of the same supervisor, Vicki Forde,; all comparators had five years of
employment history and five year history of excessive tardiness and missed
punches. They are similar enough to permit a reasonable inference of
discrimination, and that is all McDonnell Douglas requires, that all comparators are
“comparable.” Most importantly, no comparators listed were terminated for failure
to adhere to the attendance policy; in which this evidence was also overlooked in the
pretext stage of McDonnell Douglas... “especially relevant to [a pretext showing]
would be evidence that white employees involved in acts against petitioner of
“comparable seriousness to the [plaintiff’s civil disobedience] were nevertheless
retained or rehired.”
Moreover, The Eleventh Circuit concluded the “immaterial difference” between
Plaintiff and her comparators were due to the two unarticulated or untested
reasons for termination’ and applied this standard to the prima facie stage. Under
the McDonnell framework applied to circumstantial evidence cases, a plaintiff must
first make a prima facie case of employment discrimination. To establish a prima
facie case of intentional discrimination under a disparate treatment theory, the

15
plaintiff must demonstrate that she (1) is a member of a protected class; (2) was
qualified for the position; (3) was subjected to an adverse employment action; and
(4) was replaced by someone outside the protected class, or in the case of disparate
treatment, shows that other similarly situated employees in the protected class
were treated more favorably. In Burdine, after the plaintiff in a job discrimination
action under Title VII of the Civil Rights Act of 1964 (42 USCS 2000e.) has proved a
prima facie case of discriminatory treatment, the burden shifts to the defendant is
to rebut the presumption of discrimination that the prima fade case has raised by
producing evidence that the plaintiff was rejected, or someone else was preferred,
for a legitimate, nondiscriminatory reason; the defendant need not persuade the
court that it was actually motivated by the proffered reason, it being sufficient if a
defendant’s evidence raises a genuine issue of fact as to whether it discriminated
against the plaintiff by clearly setting forth, through the introduction of admissible
evidence, the reasons for the plaintiff’s rejection, and the explanations being legally
sufficient to justify a judgment for the defendant; the defendant cannot meet its
burden through an articulation not admitted into evidence, such as an answer to
the complaint or an argument of counsel.
Hence, “a court cannot consider subjective evaluations in the similar
analysis. In McDonnell Douglas, Rather...a Title VII plaintiff need only show that
he or she satisfied an employer’s objective qualifications. The employer may then
introduce its subjective evaluations of the plaintiff at the later stages of the

16
McDonnell Douglas framework. A contrary rule, under which an employer’s
subjective evaluation could defeat the plaintiff’s initial prima facie case, cannot be
squared with the structure and purpose of the McDonnell Douglas framework.
Specifically, we have made clear that the prima facie case is designed to include only
evidence that is objectively verifiable and either easily obtainable or within the
plaintiff’s possession. Walker v. Mortham, 158 F.3d 1177, 1192-93 (11th Cir. 1998).
This permits the plaintiff who lacks direct evidence of invidious intent to force the
employer to articulate its motives for the challenged employment action so that the
plaintiff has an opportunity to show intentional discrimination by circumstantial
evidence. If we were to hold an employer’s subjective evaluations sufficient to
defeat the prima facie case, the court inquiry would end, and the plaintiff would be
given no opportunity to demonstrate that the subjective evaluation was pretextual.
Such a blind acceptance of subjective evaluations is at odds with the intent that
underlies the McDonnell-Douglas framework. This is particularly important
because we have emphasized that subjective criteria can be a ready vehicle for
race-based decisions. See, e.g., Miles v. M.N.C Corp., 750 F.2d 867, 871 (11th Cir.
1985). Furthermore, we cannot reconcile a rule that would essentially require a
plaintiff to prove pretext as part of his prima facie case at the summary judgment
stage with the Supreme Court’s instruction that the plaintiff’s prima facie burden is
not onerous. Patterson v. McLean Credit Union, 491 U.S. 164, 186, 105 L. Ed. 2d
132, 109 S. Ct. 2363 (1989); see also Isenbergh v. Knight-Ridder Newspaper Sales,

17
97 F.3d 436, 439 (11th Cir.) 1996) (characterizing plaintiff’s prima facie burden as
“light”). Thus, subjective criteria does not play no part in the plaintiff’s prima facie
case. Rather, they are properly articulated as part of the employer’s burden to
produce a legitimate race-neutral basis for its decision, then subsequently evaluated
as part of the court’s pretext inquiry. Accord Fowle v. C & C Cola, 868 f.2d 59,65 (3d
Cir. 1989); Medina v. Ramsey Steel Co., 238 F. 3d 674, 681 (5th Cir. 2001); Wexler v.
White’s Fine Furniture, 317 F.3d 564, 575 (6th Cir. 2003) (en banc); Jayasinghe v.
Bethlehem Steel Corp., 760 F. 2d 132, 135 (7th Cir. 1985); LeGrand v. Tr. of Univ. of
Ark., 821 F.2d 478, 481 (8th Cir. 1987); Lynn v. Regents of Univ. of Cal., 656 F. 2d
1337, 1344-45 (9th Cir. 1981); Burrus v. United Tel. Co., 683 F.2d 339, 342 (10th Cir.
1982); Stewart v. Ashcroft, 211 F. Supp. 2d 166, 170-71 (D.D.C 2002) 359 U.S. App.
D.C. 139, 352 F.3d 422 (D.C. Cir. 2003); LaFleur v. Wallace State Cmty. College, 955
F. Supp. 1406, 1418 (M.D. Ala. 1996).
The Eleventh circuit also erred because it applied the nearly identical under
different circumstances standard to plaintiff’s prima facie case. The nearly
identical standard explains when a claim alleges discriminatory discipline, to
determine whether employees are similarly situated, The Eleventh Circuit
evaluates “whether the employees are involved in or accused of the same or similar
conduct and are disciplined in different ways.” Maniccia v. Brown, 171 F.3d 1364,
1368 (11th Cir. 1999) also see Burke-Fowler v. Orange County, Fla., 447 F. 3d 1319.
1323 (11th Cir. 2006); since plaintiff was in a situation dissimilar to [her] proffered

18
comparators due to accusations of falsifying time and attendance records and
accusations of tardiness, Luke was not similarly situated in all material respects to
her comparators. In Lewis, the Eleventh circuit adopted the “all material” standard
because the nearly identical standard was considered too strict. Not only is this
standard too strict, but it implements one’s subjective belief or the “honest belief’
rule. The application of the honest belief rule at the prima facie stage or any
accusation conflicts with Supreme Court precedent because it does not give the
plaintiff the opportunity to prove if those reasons are false; which petitioner proved
at the pretext stage the proffered reason was pretextual. The material difference
between comparators at the prima facie stage is if other non minority individuals
who violated the same work rule but were not retained.
III. Eleventh Circuit and District Court erred when it applied inadmissible
evidence and unarticulated/untested reasons for termination at the second stage of
McDonnell Douglas. District Court erred when it failed to consider Petitioner’s
comparator evidence at the prima facie stage.
The District Court erred when it failed to consider Plaintiff’s comparator
evidence at the prima facie stage.9 Defendants did not properly articulate all of
their proffered reasons; it was the argument of the defendant's attorney to
9 Plaintiff expends seven pages of her brief outlining her comparators who are similarly situated for
the purposes of proving her prima facie case. (Appellant’s Br. pp. 15-21). She states that the District
Court applied the law incorrectly because the information “was not applied even in the prima fade
stage of the case” and the Court “erred when [it] did not consider similiarly situated comparators.”
(Appellant’s Br. pp. 9-10). Plaintiff is correct that the law was not applied at the prima fade stage of
the case, because the District Court assumed without analysis of Plaintiff’s proffered evidence that
she made out a prima fade case for the purposes of the summary judgment order. (Doc. 73, p. 14). In
its analysis, the District Court jumped straight to the second stage of the McDonnell Douglas
analysis. (Id. at 14-15). Therefore, whether or not Plaintiff has proffered similarly situated
comparators is a non-issue. See Appellee’s Brief at 12

19
implement the honest belief rule at the burden of production or burden of
persuasion stage of McDonnell Douglas. At the second stage of McDonnell Douglas,
the employer’s burden is to produce evidence or persuasion by articulating the
reason for the employer’s rejection. At this stage, it is not sufficient for the
employer to state what motivated the termination; thus, the properly articulated
rejection will give the Plaintiff a fair opportunity to prove pretext or to prove that
employer’s explanation was false. “To accomplish this, the defendant must clearly
set forth, through the introduction of admissible evidence, the reasons for the
plaintiff’s rejection...The explanation provided must be legally sufficient to justify a
judgment for the defendant.”(Tex. Dep’t of Cmty. Affairs v. Burdine, 450 U.S. 248
Supreme Court 1981) In oral argument, defendant’s counsel argued that the
reason for plaintiff’s rejection was due to the subjective belief or falsification of time
and attendance records and a co-worker’s complaint; the reason she was
dissimilarly situated from her comparators was due to these two untested reasons.
A dissenting opinion in St. Mary vs. Hicks explains the procedural defect of when
proffered reasons are not properly articulated at the second stage of McDonnell
Douglas:
The dissent repeatedly raises a procedural objection that is impressive
only to one who mistakes the basic nature of the McDonnell procedure. It
asserts that “the Court now holds that the further enquiry [i.e., the inquiry
that follows the employer’s response to the prima facie case] is wide open, not
limited at all by the scope of the employer’s proffered explanation.” The
plaintiff cannot be expected to refute “reasons not articulated by the
employer, but discerned in the record by the factfinder.” He should not “be
saddled with the tremendous disadvantage of having to confront, not the

20
defined task of proving the employer’s stated reasons to be false, but the
amorphous requirement of disproving all possible nondiscriminatory reasons
that a factfinder might find lurking in the record. “Under the scheme
announced today, any conceivable explanation for the employer’s action that
might be suggested by the evidence, however unrelated to the employer’s
articulated reasons, must be addressed by [the] plaintiff. These statements
imply that the employer’s “proffered explanation.” his “stated reasons,” his
“articulated reason,” somehow exist apart from the record-in some pleading,
or perhaps in some formal, nontestimonial statement made on behalf of the
defendant to the factfinder. (“Your honor, pursuant to McDonnell Douglas the
defendant hereby formally asserts, as its reason for the dismissal at issue
here, incompetence of the employee.”) Of course it does not work like that.
The reasons the defendant sets forth are set forth “through the introduction
of admissible evidence.” In other words, the defendant’s “articulated reasons’
themselves are to be found “lurking in the record.” It thus makes no sense to
contemplate “the employer who is caught in a lie, but succeeds in injecting
into the trial an unarticulated reason for its actions.” There is a
“lurking-in-the-record’ problem, but it exists not for us but for the dissent. If,
after the employer has met its preliminary burden, the plaintiff need not
disprove all other reasons suggested, no matter how vaguely, in the reccord)
there must be some device for determining which particular portions of the
record represent “articulated reasons” set forth with sufficient clarity to
satisfy McDonnell Douglas framework makes no provision for such a
determination, which would have to be made not at the close of the trial but
in medias res, since otherwise the plaintiff would not know what evidence to
offer. It makes no sense. (St. Mary’s Honor Ctr. V. Hicks, 509 U.S. 502
Supreme Court 1993)
Defendant’s did not specify that petitioner was terminated for falsification of
time records; however, the laws used to determine if petitioner was similarly
situated to her comparators at the pretext stage indicated this proffered reason was
implied as the reason for rejection. Since the defendant’s attorney listed
falsification of time records as a reason why she was not similarly situated to her
comparators at the pretext stage, petitioner applied the “work rule” defense to

21
prove that Forde’s belief was not honestly held.10 The honest belief rule, subjective
belief, was applied in the second stage of the McDonnell Douglas test, but it was not
articulated as a proffered reason by the defendants. Since it was not properly
articulated, it was confusing to apply the law when the petitioner was not
terminated for one’s good faith belief. The honest belief is only invoked when the
rule is properly articulated as the proffered reason for termination. Defendants
provided an explanation why petitioner was terminated:
Because she violated Defendant’s attendance policy when she failed to show up to
work at her scheduled time and when she failed to clock in according to the policy.
Plaintiff not only had a long history of failure to follow the attendance policy, but
she was put on notice of the consequences if she continued to violate the policy.
The District Court stated that defendant’s satisfied its burden of production
because the record contained evidence documenting Plaintiffs attendance issues,
multiple warnings, a coworker complaint, and a termination letter identifying
attendance as the reason. However, the co worker’s complaint was inadmissible
evidence; in the defendant’s undisputed material statement of facts, the reference
number on the record citing the co worker’s complaint was the Plaintiffs
deposition.11 There is no witness testimony for Amita Simmons (Goodman v.
10 While comparator evidence may be considered at the pretext stage, it is not enough for Plaintiff to
simply point out employees outside her protected class who she believes were treated
differently-which is all that is required at the prima facie case state. Plaintiff must also put forth
evidence that the employer subjectively believed the comparators in question were similarly situated
and treated them differently. See Alvarez v. Royal Atl. Developers, Inc., 610 F. 3d 1253, 1266 (11th
Cir. 2010)(“the inquiry into pretext centers on the employer’s beliefs, not the employee’s belief and, to
be blunt about it, not on reality as it exists outside of the decision maker’s head’). As outlined above,
Forde did not believe that the other employees were similarly situated. Further, Plaintiff failed to
provide any evidence that the HR personnel subjectively believed that the comparators were
similarly situated. (Doc. 73, pp. 24-25) See Appellee’s Brief at 12-13
11 See Doc 64-2 at page 4

22
Kimbrough, 718 F 3d. 1325, 1332 (11th Cir. 2013) (stating that “to defeat a motion
for summary judgment, [the defendant] must adduce specific evidence from which a
jury could reasonably find in his favor; [t]he mere existence of a scintilla of evidence
in support of her position will be insufficient.”)12. Furthermore, Amita Simmons
was not listed as a witness in defendant’s initial disclosure or supplemental
disclosure.

IV. Does the honest belief rule or “subjective belief” standard apply to comparator
evidence at the tertiary stage of McDonnell Douglas conflicting with the Supreme
Court “comparable seriousness” standard?
The District court erred when it concluded “at the pretext stage, a plaintiff
must put forth evidence the employer subjectively believes the comparators in
question were similarly situated and treated them differently.” Moreover, the
district court quoted, “Treating different cases differently is not discriminatory, let
alone intentionally so. See Nix v. WLCY Radio/Rahall Commc’ns, 738 F.2d 1181,
1186 (11th Cir. 1984) (Tf an employer applies a rule differently to people it believes
are differently situated, no discriminatory intent has been shown.’).” Lewis, 918
F.3d at 1222-23 (emphasis expanded). The District Court stated that this reason
aligns with traditional pretextual analysis; the District Court was incorrect of it’s
analysis at the pretext stage. In Nix, he could not establish a prima facie case of
racial discrimination by establishing that he was fired but his comparator was
retained for “nearly identical” conduct. Another reason he could not establish a

n See App. B at

23
prima facie case because his comparator was not retained because the station’s
policies did not apply to him. This comparator analysis should have been
determined at the prima facie stage; however the district court failed to consider
comparator evidence at the prima facie stage, but applied this standard at the
pretext stage. The Defendant’s counsel argued, citing Alvarez v. Royal Atl.
Developers, Inc., 610 F.3d 1253, 1266 (11th Cir. 2010), plaintiff must also put forth
evidence that the employer subjectively believed the comparators in question were
similarly situated and treated them differently. The difference between Alvarez and
Luke’s case, Alvarez could not point to any similarly situated employees as
comparators who were treated more favorably, therefore, she could not prove
discrimination at either stage. The difference between Elrod and Luke’s case, Elrod
v. Sears, Roebuck & Co, the employer applied the honest belief rule as the proffered
reason for termination or rejection.13
Under the “honest belief’ rule developed by the Seventh Circuit, “so long as the
employer honestly believed in the proffered reason,” an employee cannot prove
pretext even if the employer’s reason in the end is shown to be “mistaken, foolish,
trivial, or baseless.” Smith v. Chrysler Corp., 155 f.3d 799, 806 96th Cir. 1998)
(citing, inter aha, Kariotis v. Navistar Int’l Transp. Corp., 131 F.3d 672,676 (7th

13 The inquiry into pretext centers on the employer's beliefs, not the employer’s belief and, to be blunt
about it, not on reality as it exists outside of the decision maker’s head”). As outlined above, Forde
did not believe that the other employees were similarly situated. Further, Plaintiff failed to provide
any evidence that the HR personnel subjectively believed that the comparators were similarly
situated. See Appellee’s Brief at 13

24
Circ. 1997)). There is no law that specifies that an honest belief rule should be
applied to determine if a plaintiff and her comparators are alike or similarly
situated at the pretext stage of McDonnell Douglas. The United States Court of
Appeals for the Eleventh Circuit concluded, ‘in order for an employer’s proffered
non-discriminatory basis for its employment action to be considered honestly held,
the employer must be able to establish its reasonable reliance on the particularized
facts that were before it at the time the decision was made. If the employer is
unable to produce such evidence to support its employment action, then the honest
belief rule does not apply. In Luke, human resources denied the claim of
falsification of time records due to lack of evidence.14

14 Ms. Mason examined the claims made by Ms. Forde and found that she could not definitively prove
nor disprove that Plaintiff had falsified her time records. (Mason’s Dep., at 19:3-20:5 (“[Ijt wasn’t
proven but it wasn’t disproven either.”).) (Pet. App B at)

25

CONCLUSION
For the foregoing reasons, the petitioner asks that this Court grant this
Petition, so her case may be examined on its merits and the law.

Respectfully submitted,

Ramonica M. Luke
1613 Fairwood Drive
Augusta, Ga 30909
(706)619-8516
RamQnicalukel983@gmail.com

May 3, 2021

